            OFFICE OF
            INSPECTOR
            GENERAL
            UNITED STATES POSTAL SERVICE




       Carrier Contributions to
  Revenue Generation and Customer
               Service

                    Audit Report




                                           June 19, 2012

Report Number MS-AR-12-005
                                                                        June 19, 2012

                                                Carrier Contributions to Revenue
                                                Generation and Customer Service

                                                      Report Number MS-AR-12-005




IMPACT ON:
The revenue generation and customer          with management that this would not
service efforts of U.S. Postal Service       significantly impact sales efforts or
letter carriers (carriers).                  revenue and would not be cost effective
                                             to implement. Therefore, we are not
WHY THE OIG DID THE AUDIT:                   making a recommendation on this issue.
Our objective was to evaluate carrier
contributions to revenue generation and      WHAT THE OIG RECOMMENDED:
customer service.                            We recommended management
                                             implement best practices for sales lead
WHAT THE OIG FOUND:                          programs and enhance data collection
Carriers contribute to Postal Service        and reporting efforts to identify whether
revenue through the Customer                 a lead results in new revenue for the
Connect® and Rural Reach® programs           Postal Service or diverts revenue from
by identifying sales leads for the           another product.
Postal Service‘s Sales staff. Carriers‘
level of participation in these programs     WHAT MANAGEMENT SAID:
varies among districts, but if districts     Management agreed with our findings
with low participation adopt the best        and recommendations and set forth its
practices of districts with high             plan to implement best practices for
participation, there might be an             Customer Connect and Rural Reach
opportunity to increase the number and       programs in districts throughout the
quality of sales leads and, thus,            country. Management stated they have
revenue. We estimate that if the Postal      begun efforts to improve the value of the
Service could grow these programs by         CustomerFirst System and its data
5 percent, it could increase revenue by      consistent with our recommendation.
$18.7 million annually.                      Management agreed with the other
                                             impact of $56.1 million reported.
Management also might be missing key
opportunities to grow revenue due to         AUDITORS’ COMMENTS:
incomplete data on sales leads.              Management‘s comments were
Management could also enhance the            responsive and the corrective actions
process for collecting data on the           should resolve the issues identified in
services carriers provide, including rural   the report.
carrier stamp sales and community
service efforts to allow better evaluation   Link to review the entire report
of delivery changes and measure rural
customers‘ needs. Although such
information would be useful, we agree
June 19, 2012

MEMORANDUM FOR:             CLIFF RUCKER
                            VICE PRESIDENT, SALES




FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue & Systems

SUBJECT:                    Audit Report – Carrier Contributions to Revenue Generation
                            and Customer Service
                            (Report Number MS-AR-12-005)

This report presents the results of our audit of carrier contributions to revenue
generation and customer service (Project Number 12RG014MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Marketing and Service, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Nagisa Manabe
    Paul E. Vogel
    Corporate Audit and Response Management
Carrier Contributions to Revenue Generation                                                                        MS-AR-12-005
 and Customer Service




                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Sales Lead Program Best Practice.................................................................................. 2

Additional Data on Carrier Sales Lead Programs ............................................................ 3

Enhanced Data for Carrier Services ................................................................................ 4

Recommendations .......................................................................................................... 4

Management‘s Comments .............................................................................................. 4

Evaluation of Management‘s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Other Impacts ........................................................................................... 10

Appendix C: Best Practices ........................................................................................... 11

Appendix D: Fiscal Year 2011 Carrier Leads for Customer Connect ............................ 13

Appendix E: Fiscal Year 2011 Carrier Leads for Rural Reach ...................................... 14

Appendix F: Management‘s Comments ........................................................................ 15
Carrier Contributions to Revenue Generation                                     MS-AR-12-005
 and Customer Service



Introduction

This report presents the results of our audit of carrier contributions to revenue
generation and customer service (Project Number 12RG014MS000). Our
objective was to evaluate letter carriers‘ (carrier) contributions to revenue
generation and customer service. This self-initiated audit addresses strategic
risks. See Appendix A for additional information about this audit.

There are two types of carriers: city and rural. City carriers deliver mail in
populated areas, while rural carriers deliver mail in areas more traditionally
considered rural or remote. Carriers can leverage their relationships with
customers to identify new opportunities to grow revenue through two programs:
Customer Connect® and Rural Reach® Customer Connect, implemented in
2003, is a partnership between the National Association of Letter Carriers
(NALC) and the U.S. Postal Service. Rural Reach, implemented during
2008-2009, is a partnership between the National Rural Letter Carriers‘
Association (NRLCA) and the Postal Service. Carrier participation in these
programs is voluntary and encouraged through a memoranda of understanding
between the Postal Service and the unions.




1




                                              1
Carrier Contributions to Revenue Generation                                    MS-AR-12-005
 and Customer Service


While delivering mail, carriers have the opportunity to interact with business
and residential customers. These interactions present opportunities in which
carriers can inform customers about other services the Postal Service offers
and introduce new products. In addition, carriers are familiar to the people they
serve, often helping in dramatic ways while making their mail deliveries. For
example, carriers have sent for help when senior citizens fail to collect their
mail, alerted residents to fires, aided accident victims, and even prevented
burglaries. These unofficial duties are difficult to quantify but contribute to a
general sense of community well-being and Postal Service brand recognition.

Conclusion




Management also might be missing key opportunities to grow revenue,
because they lack complete data about the number and quality of sales leads.
The Postal Service collects data about sales leads, including reasons why the
leads do not result in sales. However, the data do not include sufficient
information to determine whether the leads result in new revenue or whether
the revenue was diverted from one Postal Service product to another. If
additional information was gathered, it could increase management‘s ability to
identify opportunities to enhance the lead programs thus increasing their
effectiveness.

We also determined enhancements could be made to the data collection on
services that carriers provide, including community service efforts and rural
carrier product sales. Although such information would be useful, we agree with
management that this would not significantly impact sales efforts or revenue
and would not be cost effective to implement. Therefore, we are not making a
recommendation on this issue.

Sales Lead Program Best Practice




                                              2
Carrier Contributions to Revenue Generation                                                          MS-AR-12-005
 and Customer Service




Our review of districts with low and high carrier participation in the sales lead
programs revealed several best practices similar to those developed by Postal
Service officials. Adoption of these best practices varied by district and
correlated with their carrier participation levels — districts with higher
participation rates consistently adopted these best practices, while use of the
best practices in districts with lower participation rates lacked uniformity in
usage of the best practices. Best practices from districts with high participation
in carrier sales lead programs are described as follows. See Appendix C for
additional information.

   Top-down commitment to the carrier sales leads program: a coordinated
    effort between the district managers; the Sales, Marketing, Station, and
    Branch managers; and postmasters was associated with higher carrier
    participation.

   Bottom-up commitment: delivery supervisors and carriers in high-
    performing districts expressed their ownership of the sales leads programs,
    often stating that they consider growing the business as beneficial for the
    Postal Service.

   Ongoing training and motivational efforts: carriers, Customer Connect and
    Rural Reach coordinators, postmasters/station managers, and customer
    service managers received regular input and training from Marketing and
    Sales personnel about new products and quality sales leads.

   Communication of success: managers provided station- and district-wide
    appreciation as well as area updates through district newsletters and
    websites.

Additional Data on Carrier Sales Lead Programs

While the Postal Service collects data about carrier participation, the number of
leads generated, and the total revenue that results from sales leads, the
collection of additional data might help to measure the actual effectiveness of
the Customer Connect and Rural Reach programs in generating new revenue.
Such information is not captured by the Sales force in CustomerFirst!, the
system used to track sales leads. Further, comments entered into the system
by the Sales force do not always explain whether the customer selected the
Postal Service over competitors. Consequently, the Postal Service cannot
determine whether revenue generated from sales leads under these programs

4
  We consider this estimate conservative, even in view of proposed changes to Saturday delivery service.
Most leads are generated during weekdays, and a reduction in the number of delivery days would not
significantly impact the carrier sales lead programs.


                                                   3
Carrier Contributions to Revenue Generation                                         MS-AR-12-005
 and Customer Service


is revenue the customer previously spent on a competitor‘s product or simply
revenue diverted from one Postal Service product to another. Such additional
information could increase management‘s ability to identify opportunities to
enhance the lead programs thus increasing their effectiveness.

Enhanced Data for Carrier Services

Carriers provide official and unofficial customer service: official duties for city
and rural carriers include the delivery and collection of letters, flats, and
parcels; and rural carriers can sell stamps and money orders to the customers
along their routes because customers might have limited access to postal
facilities. Unofficial duties include community service efforts, such as sending
for help when senior citizens fail to collect their mail, alerting residents to fires,
aiding accident victims, and even preventing burglaries while on their routes.
Instances of community service assistance are often reported in publications
and on websites; however, no comprehensive tracking program is in place. In
addition, data are not available to determine the amount of revenue rural
carriers generate through stamp services on their routes, or the day the
services are provided. Such data would allow the Postal Service to understand
the full impact of customer service efforts and provide more complete
information to inform decision making, including delivery changes. Enhanced
data would also allow the Postal Service to better measure rural customer
needs, to attract new customers and expand the use of postal products and
services to existing customers.

Although such information would be useful, we agree with management that
collection of this data would not significantly impact sales efforts or revenue and
would not be cost effective to implement. Therefore, we are not making a
recommendation on this issue.

Recommendations

We recommend the vice president, Sales:

1. Implement best practices for Customer Connect and Rural Reach programs
   in districts throughout the country.

2. Enhance data collection and reporting to identify whether a lead results in
   new revenue for the Postal Service or diverts revenue from another Postal
   Service product.

Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendation 1, management agreed with implementing best practices
throughout the country. Management is taking steps to support closing gaps



                                              4
Carrier Contributions to Revenue Generation                                   MS-AR-12-005
 and Customer Service


between high-performing and low-performing districts, including conducting
teleconferences with area coordinators to outline a plan of action to reenergize
the programs and quarterly teleconferences to discuss best practices, share
successes, and review iterative processes for success. Management‘s target
implementation date is September 30, 2012.

Regarding recommendation 2, management stated in their response and in
subsequent correspondence that they have begun efforts to improve the value
of the CustomerFirst! System consistent with our recommendation and have
initiated an external consulting evaluation to determine how to better align the
system with industry best practices. In October, 2011, management instituted
data integration of the CustomerFirst! and Business Connect Data Center
(BCDC) systems. Combining the data provided by two separate sources has
improved the ability to determine why a sale was lost or won. Management
plans to complete the system and data requirements by September 30, 2012,
and complete target implementation by January 31, 2015. See Appendix F for
management‘s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers
management‘s comments responsive to the recommendations and corrective
actions should resolve the issues identified in the report.




                                              5
Carrier Contributions to Revenue Generation                                       MS-AR-12-005
 and Customer Service



                            Appendix A: Additional Information
Background

Since 1775, the Postal Service has connected families, friends, and businesses
by mail. Mail delivery is central to the Postal Service‘s mission and role in
providing services that bind the nation together through the personal and
business correspondence of the people. The Postal Service is required by law
to provide prompt, reliable, and efficient delivery and collection services to the
entire U.S. population. These and related requirements are commonly referred
to as the ―universal service obligation.‖5 Currently, carriers primarily deliver mail
to three delivery points: door-to-door, curbside, and centralized. There are two
types of carriers: city and rural. City carriers deliver mail in populated areas,
while rural carriers deliver mail in areas more traditionally considered rural or
remote.

Both city and rural carriers have direct access to small to mid-size business
customers while on their routes. Carriers have the opportunity to initiate
conversations with customers, potentially attracting new customers or
expanding the use of Postal Service products and services for existing
customers. Additionally, through their experience and knowledge about the
dwellings, businesses, and customers on their routes, carriers are uniquely
positioned to aid the Postal Service in generating revenue.




Carriers provide official and unofficial customer service. Official duties for city
and rural carriers include the delivery and collection of letters, flats, and
parcels. In addition, rural carriers provide stamp and money order sales to their
customers, who may not have easy access to postal facilities. The Postal
Service, with the carrier unions, has developed the Carrier Alert Program,
which connects carriers to official caregivers and rescue workers to address
issues along carrier routes. Carriers are recognized for their community service
in this unofficial capacity by the Postal Service and union leadership through
publications and websites. The Postal Service also recognizes employees for
heroic acts through its Postmaster General Heroes Program. Any Postal
Service employee can nominate an individual for what he or she considers a
heroic act. These usually include assisting customers in a health crisis or
accident, reporting crimes in progress, reporting fires or utility problems, and


5
    Title 39 U.S.C. §101.


                                              6
Carrier Contributions to Revenue Generation                                                             MS-AR-12-005
 and Customer Service


assisting lost children. The act can occur during the work day or any other time.
In FY 2011, the Postal Service recognized 301 employees for heroic acts.

Objective, Scope, and Methodology

Our objective was to evaluate carrier contributions to revenue generation and
customer service. Our scope included Customer Connect and Rural Reach
program contributions to the Postal Service‘s revenue for FYs 2009 through
2011. To accomplish our objective, we:

   Interviewed Postal Service officials in Sales, Marketing, and Delivery
    Operations to gather information regarding the services carriers provide.

   Interviewed NALC and NRLCA leadership and reviewed documentation
    about the services carriers provide postal customers.

   Analyzed the financial and nonfinancial impacts of the Customer Connect
    and Rural Reach programs.

   Identified whether additional opportunities exist for carriers to provide
    service or assistance to customers at little or no additional cost to the Postal
    Service.

   Performed a correlation analysis to observe any potential relationship within
    the data such as sales leads and percentage of participation and sales
    leads and revenue generated by Customer Connect and Rural Reach
    programs.

   Compared the districts' percentage of participation target attained against
    their National Performance Assessment (NPA) score to determine
    correlation between the two.

In addition, we compared carrier participation rates in the sales lead programs
among the districts and identified the districts with the highest and lowest
participation rates.

Site Selection

To determine best practices, we obtained a list of districts participating in the
Customer Connect and Rural Reach sales lead programs in FY 2011,6 total
carrier participation with the achieved annual carrier participation goal, total
annual number of leads, total annual number of sales, and total annual
revenue.


6
  In FY 2011, all 67 districts participated in the Customer Connect Program and 64 districts participated in
the Rural Reach Program.


                                                     7
Carrier Contributions to Revenue Generation                                                                  MS-AR-12-005
 and Customer Service


We performed various correlation analyses to determine potential relationships
within the data, including:

      The number of leads versus the percentage of carrier participation.
      The number of leads versus total revenue generated from the leads.
      The number of leads versus the total number of sales.

Based on the results of our analysis, we determined the strongest correlation
within the data was between the number of leads and the percentage of
participation achieved. Using the percentage of participation target attained as
the basis for ranking all of the districts, the team selected the four districts with
the highest percentage of carriers participating and the four districts with the
lowest percentage of carriers participating in the Customer Connect and Rural
Reach programs. We judgmentally selected a total of 12 districts from our
sample, six districts for each sales lead program with high and low carrier
participation (see Table 1). See Appendix D and Appendix E for additional data.

                                Table 1. Facilities Visited — FY 2011




We conducted this performance audit from November 2011 through June 2012
in accordance with generally accepted government auditing standards and
included such tests of internal controls, as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our

7
    The participation goal is 35 percent of the number of carriers with routes with 10 or more businesses.


                                                       8
   Carrier Contributions to Revenue Generation                                   MS-AR-12-005
    and Customer Service


   findings and conclusions based on our audit objective. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions
   based on our audit objective. We discussed our observations and conclusions
   with management on May 22, 2012, and included their comments where
   appropriate.

   We assessed the reliability of BCDC and other sales lead data by interviewing
   Postal Service officials knowledgeable about the data. We determined that the
   data were sufficiently reliable for the purposes of this report.

   Prior Audit Coverage

                                    Final
Report         Report                                Monetary
                                   Report                       Report Results
 Title         Number                                 Impact
                                    Date




                                                                             .



                                                 9
Carrier Contributions to Revenue Generation                                                            MS-AR-12-005
 and Customer Service



                                 Appendix B: Other Impacts




8
  Revenue the Postal Service could potentially generate for goods delivered or services rendered based
on suggested improvements.
9
  If the quality of leads improved and increased sales by 5 percent in FY 2012, there could be resulting
additional revenue.
10
    The Postal Service could gain additional revenue in FYs 2013 and 2014 if the quality of leads improved
and increased sales ($18.7 million for both FYs 2013 and 2014).


                                                    10
    Carrier Contributions to Revenue Generation                                                     MS-AR-12-005
     and Customer Service


                                   Appendix C: Best Practices

                               Table 3. Identified Best Practices
                        District leadership actively demonstrates support of
                  the carrier sales lead programs as critical to revenue generation.

The district manager and other district officials continually monitor program targets and progress to
provide support and resources, such as training, where needed. The district manager holds
postmasters and unit coordinators responsible for carrier participation and lead generation.

        Business development specialists connect units, unions, and district leadership;
                               and provide ongoing support.
The business development specialist:

    Regularly shares all program processes, targets, and performance data with district leadership,
     including perceived needs and special successes.

    Assures that Customer Connect and Rural Reach coordinators are designated by unions.

    Provides training at least quarterly to unit program coordinators, postmasters, or station
     managers, and managers of Customer Service, either by visiting carrier units or via webinar.
     Training includes processes for filling out lead cards, entering leads in BCDC, reporting, and
     keeping carriers motivated and participating in the sales lead programs.

    Identifies a location and mechanism for carriers to submit leads in the station or carrier unit.

    Assures that lead cards are available to carriers.

    Periodically visits stations, especially those with low participation, to motivate and educate
     carriers.

                               Carriers commit to the sales lead programs.

Carriers consider their part in ‗growing revenue‘ integral to the success and future of the Postal
Service.

                                          Successes are celebrated.

Sales resulting from the carrier programs are recognized locally, in districts and areas, nationally,
and by the unions by a variety of means:

    A certificate of appreciation signed by the district manager.
    Breakfast or lunch recognition for carriers.
    Communication of carrier successes through publications and websites.
    Source: Employee Engagement Programs Official Playbook, Version 1, dated March 1, 2010, pages 7- 8.




                                                    11
Carrier Contributions to Revenue Generation                                        MS-AR-12-005
 and Customer Service



In some instances, personnel in districts with low carrier participation cited
challenges to the program, including:

   Lack of continuity of the business development specialist position. There
    has been a pattern of low-performing districts having inexperienced
    business development specialists because of organizational changes.

   Minimal support from district leadership in sales lead programs. Although
    carrier participation in sales lead programs contributes to overall revenue
    generation, carrier participation rates are not specifically included in district‘s
    NPA‘s goals, so these programs do not receive sufficient attention or
    support from district managers.

   Participation in sales lead programs is voluntary for carriers, so there is no
    incentive for them to participate. As a result, carriers focus on other
    operational priorities.

   Limited availability of Sales staff for coaching and training carriers and other
    supporting personnel.




                                              12
Carrier Contributions to Revenue Generation                          MS-AR-12-005
 and Customer Service



       Appendix D: Fiscal Year 2011 Carrier Leads for Customer Connect




                                              13
Carrier Contributions to Revenue Generation                              MS-AR-12-005
 and Customer Service



            Appendix E: Fiscal Year 2011 Carrier Leads for Rural Reach




                                              14
Carrier Contributions to Revenue Generation               MS-AR-12-005
 and Customer Service



                      Appendix F: Management’s Comments




                                              15
Carrier Contributions to Revenue Generation        MS-AR-12-005
 and Customer Service




                                              16
